HHS/OIG-AUDIT--Indian Health Service's Tribal Management Grants Program
(A-06-94-00049)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Indian Health Service's Tribal Management Grants Program," (A-06-94-00049)
November 5, 1996
Complete
Text of Report is available in PDF format (2 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of the Indian Health Service's
(IHS) Tribal Management Grants Program (program). We performed this review at the
request of IHS management. The program, authorized by the Indian Self-Determination
and Education Assistance Act, Public Law 93-638, as amended, is intended to be
a source of funds to assist American Indian and Alaska Native tribes and tribal
organizations (tribes) assess whether they want to provide health care services
under contracts with IHS (this is in contrast to tribes receiving direct health
care from IHS facilities). The grants, which average about $81,000 are used mainly
to improve the management capacity of the tribes or tribal organizations, and to
aid in planning and evaluation. In Fiscal Year (FY) 1995, about one-third of IHS'
$1.36 billion budget was awarded in contracts to tribes so they could provide their
own health care services.
Our overall objective was to evaluate the success of the Tribal Management Grants
Program. Our specific sub-objectives were to determine whether (1) the application
review process was effective in finding those projects consistent with the program
objectives; (2) IHS project officers provided needed program support to the tribes;
and (3) IHS evaluated those projects funded to ascertain the overall success of
the program.
Our review identified areas where improvements could be made to the Tribal Management
Grants Program, specifically regarding the effectiveness of the application review
process and the project officers' support provided to the tribes. However, because
there were no agreed-upon measurement criteria, we found that the overall performance
of the program could not be objectively measured.
Regarding our specific sub-objectives, we determined:
Finding 1: The application review process needs to be improved.
Although IHS had established review criteria, reviewers did not apply criteria
consistently. A consistent evaluation would ensure, for example, that all reviewers
applied the same criteria in judging the applications.
Finding 2: Many project officers did not provide tribes support
in applying for or carrying out their grants because they did not view their
role in this program as important.
Finding 3: The IHS did not make an adequate evaluation of
the program's performance. Because IHS did not have agreed upon criteria for
the program, nor established goals to measure program success, IHS has not been
able to evaluate the program's performance.
We also found differing interpretations of the program among and between the three
groups we surveyed--tribes, reviewers, and project officers. Such variance appeared
to be linked to IHS not clearly defining and communicating the purpose of the program
to all affected parties.
Our findings led us to conclude that there is no assurance that the most qualified
projects were selected for funding; or that the funded projects received sufficient
program support to succeed. Further, because a system has not been developed to
measure project and program achievements, there is no assurance that the program
is accomplishing what was intended under the law.
To ensure that the program is administered fairly and provides the maximum benefit
to the tribes, we suggest that IHS: (1) revise its application review process to
ensure that all applications are reviewed consistently; (2) emphasize to project
officers the importance of providing needed support to the tribes and delineate
relevant tasks in their performance plans; (3) develop program performance criteria;
(4) implement a system to measure program accomplishments; and (5) clearly define
and communicate to the tribes, reviewers, and project officers the purpose of the
program.
In its October 3, 1996 comments to our draft report, IHS indicated agreement with
our findings and suggested several technical changes which we have incorporated.